May 16, 2007

ANTHONY J. VEGLIANTE
EXECUTIVE VICE PRESIDENT AND
 CHIEF HUMAN RESOURCES OFFICER

DEBORAH M. GIANNONI-JACKSON
VICE PRESIDENT, EMPLOYEE RESOURCE
 MANAGEMENT

SAMUEL M. PULCRANO
DIRECTOR, SAFETY AND ENVIRONMENTAL
 PERFORMANCE MANAGEMENT

SUBJECT: Audit Report – Postal Service’s Workplace Safety and Workplace-Related
         Injury Reduction Goals and Progress (Report Number HM-AR-07-002)

This report presents the results of the review required by the Postal Accountability and
Enhancement Act (PAEA),1 Report on Postal Workplace Safety and Workplace-Related
Injuries, Section 704(a) (Project Number 07YG012HM000). This section of the act
states the U.S. Postal Service Office of Inspector General (OIG) will detail and assess
the progress made by the Postal Service in improving workplace safety, reducing
workplace-related injuries nationwide, and identifying opportunities for improvement, not
later than 6 months after enactment.

Our objectives were to:

(1) Identify injury reduction goals established by the Postal Service for fiscal years
    (FYs) 2005 and 2006 and assess its success in meeting these goals.

(2) Identify where the Postal Service (nationwide)2 was unsuccessful in meeting its
    injury reduction goals, explain the reasons for this, and identify opportunities for
    making further progress in meeting these goals.

(3) Describe the actions the Postal Service took to improve workplace safety and
    reduce workplace-related injuries.


1
 Public Law 109-435, Postal Accountability and Enhancement Act, December 20, 2006.
2
 The PAEA required us to identify the “areas” (facility locations) where the Postal Service failed to meet its goals.
Through discussions with congressional staff we agreed this audit would review nationwide goals, and a subsequent
audit would review specific facility goals.
Postal Service’s Workplace Safety and Workplace-Related                                    HM-AR-07-002
 Injury Reduction Goals and Progress


(4) Determine if the Postal Service goals were in accordance with the Department of
    Labor’s (DOL) Occupational Safety and Health Administration (OSHA) guidelines for
    establishing injuries and illnesses3 (I&I) goals.

We concluded the Postal Service established and exceeded its OSHA I&I reduction
goals for FYs 2005 and 2006. In fact, over the past 5 years, the Postal Service’s OSHA
I&I rate and numbers have decreased 27 and 34 percent, respectively. The Postal
Service’s success in achieving its OSHA I&I goals was due to numerous actions taken
to improve workplace safety and reduce workplace-related OSHA I&I nationwide. The
Postal Service has also identified opportunities for making further progress in meeting
its goals. This includes partnerships and agreements with its four major unions4 to
work together to improve workplace safety.

In addition, although OSHA does not establish individual injury reduction goals for
federal agencies or the Postal Service, it does establish a national average injury
reduction goal to reduce OSHA I&I for all entities within its jurisdiction. Using OSHA’s
national average reduction goal as a benchmark, we determined the Postal Service
exceeded OSHA’s national average 5-year goal by 7 percent. According to the DOL
OSHA Special Assistant to the Director of Cooperative and State Programs (OSHA
Special Assistant), the partnership with the Postal Service is one of OSHA’s best in
terms of OSHA I&I reductions.

Further, there may be a corresponding reduction in the Postal Service’s total accident
and OSHA I&I costs. However, it does not capture individual accident costs and,
therefore, we could not determine the cost savings in key categories from one year to
the next. The OIG made one significant recommendation to help the Postal Service
monitor costs associated with accidents and OSHA I&I. This recommendation could
indirectly assist the Postal Service in targeting high cost areas for reductions in
accidents and OSHA I&I. In addition, ensuring the safety of employees has a positive
impact on goodwill and the Postal Service brand. We will report this potential non-
monetary impact (safeguarding employees and the work environment, and preserving
the integrity of the Postal Service brand) in our Semiannual Report to Congress.

The Employee Resource Management Vice President (VP) agreed with the report as
written, the non-monetary impact, and the recommendation to capture OSHA I&I costs.
Management’s comments, in their entirety, are included in Appendix G of this report.

                                               Background

The Postal Service is subject to the Occupational Safety and Health (OSH) Act of 1970
pursuant to the Postal Employees Safety Enhancement Act of 1998. The OSH Act

3
   OSHA defines an injury as any wound or damage to the body resulting from an event in the work environment.
Illnesses (produced by the work environment) include both acute and chronic illnesses such as, but not limited to,
skin diseases, respiratory disorders, or poisonings.
4
   The Postal Service’s four major unions are the American Postal Workers Union (APWU), the National Association of
Letter Carriers (NALC), the National Postal Mail Handlers Union (NPMHU), and the National Rural Letter Carriers’
Association (NRLCA).


                                                        2
Postal Service’s Workplace Safety and Workplace-Related                                            HM-AR-07-002
 Injury Reduction Goals and Progress


provides citations, penalties, and criminal referrals for employers who fail to comply.
OSHA is responsible for promulgating and enforcing standards and regulations under
the OSH Act. The Postal Service is subject to the reporting requirements of OSHA and
follows the required criteria and reporting methodology. The Postal Service is also
obligated under OSHA’s “General Duty” clause5 to provide a safe and healthful working
environment for all workers covered by the OSH Act.

According to Postal Service policy,6 the Safety and Environmental Performance
Management (SEPM) Director reports to the Employee Resource Management VP.
The SEPM Office manages OSHA compliance activity, including citations, penalties,
abatements, negotiated settlements, and judicial procedures; and is responsible for
administering and evaluating the Postal Service’s safety and health program. To
ensure management integrates safety procedures into all Postal Service operations, the
SEPM Office also provides safety and health expertise and staff support to other
headquarters functions and the nine area offices,7 as necessary. This is accomplished
by monitoring and improving the safety program and establishing safety and health
policies, procedures, and standards.

Occupational Safety and Health Administration Injuries and Illnesses Frequency Rate

The OSHA I&I frequency rate is the number of recordable8 OSHA I&I incidents per 100
full-time employees for a specific period of time. The rate is calculated using an
industry-wide formula9 recommended by OSHA that provides the standard base for
calculating incidence rates. It also provides a measurement that makes accident data
for large and small facilities comparable. The desire is for the rate achieved to be
“lower” than the goal.

                                        Scope and Methodology

We discuss our scope and methodology in detail in Appendix B.




5
  The 1973 “General Duty” clause states employers shall furnish all employees a workplace that is free from
recognized hazards that cause or are likely to cause death or serious physical harm including workplace violence.
Although the OSHA has not established a specific standard for preventing workplace violence, beginning in 1993, it
issued workplace violence citations under the General Duty clause [29 U.S.C. 654 5(a)(1).
6
  Employee and Labor Relations Manual (ELM) 17.15, Issue 17, Section 812, Management Responsibilities,
July 20, 2006.
7
  The nine area offices are Capital Metro, Eastern, Great Lakes, New York Metro, Northeast, Pacific, Southeast,
Southwest, and Western.
8
  An injury or illness is recordable if it (1) results in death, days away from work, restricted work or transfer to another
job, medical treatment beyond first aid, or loss of consciousness; and/or (2) involves a significant injury or illness
diagnosed by a physician or other licensed health care professional, even if it does not result in death, days away
from work, restricted work or job transfer, medical treatment beyond first aid, or loss of consciousness.
9
  The formula is the total number of OSHA I&I multiplied by 200,000 hours, divided by the number of exposure hours
worked by all employees. The 200,000 hours represents 100 employees working 2,000 hours per year. The term
exposure refers to those hours employees actually worked (and excludes hours for leave, such as annual and sick
leave).


                                                             3
Postal Service’s Workplace Safety and Workplace-Related                             HM-AR-07-002
 Injury Reduction Goals and Progress


                                     Prior Audit Coverage
We discuss our prior audit coverage in Appendix C.

                                               Results

The Postal Service’s Occupational Safety and Health Administration
Injury and Illness Reduction Goals

As shown in Table 1, the Postal Service established goals, and then exceeded them, for
reducing OSHA I&I frequency rates for FYs 2002 through 2006. For example, in FY
2005, the Postal Service’s OSHA I&I goal was 6.3 and the rate achieved was 5.7. In FY
2006, the OSHA I&I goal was 5.7 and the rate achieved was 5.6. In addition, from FYs
2002 to 2006, the Postal Service achieved a 27 percent reduction in its OSHA I&I rate
and a 34 percent reduction in its total OSHA I&I numbers.

    Table 1. The Postal Service’s OSHA I&I Goals and Rates Achieved, FYs 2002 through 2006

                                                        FY                             Percentage
                                                                                      Decrease From
                                                                                       FYs 2002 to
       OSHA I&I                2002      2003       2004         2005       2006          2006
  Rate Achieved                 7.7       7.1        6.3          5.7        5.6            27
  Goal                          8.4       7.4        7.1          6.3        5.7           32
  Number of OSHA I&I          61,226    52,878     45,423       41,993     40,534          34

Source: Comprehensive Statements of Postal Operations, FYs 2002 through 2006

The Postal Service Senior Management Committee10 establishes the OSHA I&I
corporate goal annually. This goal represents what the Postal Service hopes to achieve
as a nationwide average. Since FY 2003, the goal each year was the OSHA I&I rate
achieved for the same period last year (SPLY). For example, if the rate achieved at the
end of one year was 5.6, that rate became the goal for the next year. In FY 2007, the
Postal Service changed their goal to .1 (1/10th basis point) reduction to the rate for the
SPLY. Therefore, the OSHA I&I goal for FY 2007 is 5.5, since the Postal Service ended
FY 2006 with a rate of 5.6. As of February 2007,11 the Postal Service FY 2007 OSHA
I&I rate is 5.5.

39 U.S.C. § 2803 and 2804 state the Postal Service should:

    •   Establish performance goals to define the level of performance to be achieved by
        a program activity (such as safety and health).

    •   Express performance goals in an objective, quantifiable, and measurable form.
10
   The Senior Management Committee includes the Postmaster General. The Senior Management Committee is also
referred to as the Executive Committee.
11
   As of April 17, 2007, the March 2007 OSHA I&I rate was not available, according to the SEPM Director.


                                                    4
Postal Service’s Workplace Safety and Workplace-Related                                      HM-AR-07-002
 Injury Reduction Goals and Progress


     •   Review, in its program performance reports, the success of achieving the
         performance goals of the fiscal year.

The Postal Service’s success in achieving its OSHA I&I goals was due to taking
numerous actions, such as identifying opportunities and creating joint partnerships and
agreements with its unions and OSHA to reduce workplace OSHA I&I.

Actions Taken to Improve Workplace Safety

As previously stated, the SEPM Office provides safety and environmental expertise and
staff support to other headquarters functions and the nine area offices. It also provides
support to 80 performance clusters (PC),12 facilities, and other offices. This office
coordinates and works with other private companies, federal agencies, and
organizations and professional groups on matters of safety, health, and the environment
to improve workplace safety and reduce workplace-related OSHA I&I. Further,
management at all levels — including the front-line supervisor — is responsible and
held accountable through its Pay-for-Performance Program for the prevention of
accidents and OSHA I&I and the control of resulting losses.

The SEPM Office has taken additional actions and identified opportunities to partner
with the unions to reach its goals. (See Appendix D for a complete list of the actions
taken and opportunities identified.) Some of the actions and opportunities are detailed
below and include:

     •   The Ergonomics Risk Reduction Process (ERRP), a joint task force with the
         NALC, and the OSHA Voluntary Protection Programs (VPP).

     •   Postal Service Program Evaluation Guide (PEG) safety audits.

     •   Accident Reduction Plans (ARP).

ERRP — The Postmaster General, former OSHA Secretary, and the NPMHU and
APWU presidents formed a partnership effective April 4, 2003, establishing the ERRP
and the Postal Service’s participation in that task force. The intent of the ERRP is to
encourage and assist the Postal Service in reducing ergonomic-related I&I. The ERRP
is geared toward regularly tracking risk factors from identification to abatement of
hazards. For example, the partnership is working to implement a process to identify
and control the risk factors in Postal Service processes that may result in
musculoskeletal disorder injuries to employees. Of the 316 Postal Service processing
facilities that could participate in the ERRP, 12613 have implemented the ERRP thus far.
(See Appendix E for a list of ERRP worksites.) Through this partnership, ERRP teams


12
   A PC includes a customer service district responsible for overseeing post offices and one or more mail processing
facilities.
13
   Initially, the Postal Service targeted 175 of the 316 processing facilities as locations where it would implement
ERRP. The Postal Service plans to implement the ERRP at the remaining 49 facilities in FYs 2007 and 2008.


                                                          5
Postal Service’s Workplace Safety and Workplace-Related                 HM-AR-07-002
 Injury Reduction Goals and Progress


at the 126 worksites have developed solutions that reduced the number of lifting and
handling accidents.

In addition to reducing ergonomic risk factors, the partnership has successfully
improved labor-management relationships at worksites. As a result, the partnership
was extended 2 additional years (through 2008).

NALC Joint Task Force — In 2003, the Postal Service entered into an agreement with
the NALC to reduce the number of OSHA I&I incurred by letter carriers. This resulted in
a joint task force of union and management representatives. The original agreement
established a 1-year pilot program in the Eastern Area and later expanded to include
the Great Lakes Area. The NALC and the Postal Service are currently working on
ergonomic initiatives in other test sites, including the use of boat hooks (prevents
leaning in and pulling from back of vehicle), hamper inserts (prevents bending over and
lifting), and portable work platforms (elevates mail off of the floor, thereby reducing
handling and lifting injuries).

VPP — Since 2001, the Postal Service has had a strong partnership and active
participation with OSHA and its unions in a variety of cooperative initiatives, including
the VPP. The VPP recognizes and promotes effective worksite-based safety and health
initiatives between management, employees, unions, and OSHA. Approval into the
VPP is OSHA’s official method of recognizing employer and employee efforts in
implementing exemplary occupational safety and health programs. OSHA approves
qualified worksites for one of three programs: Star, Merit, and Star Demonstration.
Approved worksites must submit annual self-evaluations and undergo periodic onsite
OSHA reevaluations to remain in the programs. Currently, the Postal Service has 108
worksites in the VPP, with a goal of reaching a total of 400 active VPP facilities by 2010.
Of the 108 worksites, 93 are in the Star Program and 15 are in the Merit Program. (See
Appendix F for list of VPP worksites.)

After an extensive OSHA evaluation, the Postal Service became the first federal agency
to participate in OSHA’s VPP Corporate Program on June 21, 2005. As of April 2007,
all 108 VPP worksites are participating in this program, which is designed to test new
VPP processes. OSHA created the program to allow corporations interested in
achieving VPP recognition at facilities throughout their organization a more efficient
means to accomplish this goal. Applicants are typically large corporations or federal
agencies that have adopted the VPP on a large scale to protect the safety and health of
their employees.




                                                   6
Postal Service’s Workplace Safety and Workplace-Related                                      HM-AR-07-002
 Injury Reduction Goals and Progress


PEG Safety Audits — Internal PEG safety audits are conducted annually at facilities with
50 or more employees.14 The Postal Service focused its PEG safety audits on 18 safety
program elements it identified along with OSHA. These elements include accident and
record analyses, hazard prevention and control, and safety and health training. The
Postal Service has used the PEG safety audits for 6 years and, according to the SEPM
Director, it has been the largest driver for reducing OSHA I&I rates. The Postal
Service’s average national PEG score15 for FY 2006 was a 3.6 out of a possible 5.

ARP — In March 2001, the Postal Service VP, Employee Resource Management and
the SEPM Director asked each PC to develop an ARP to improve workplace safety.
The ARP must include ongoing improvements and management must review it on a
quarterly basis to ensure progress is being made. According to the SEPM Director, the
ARP includes local reduction targets and countermeasures for handling and lifting
accidents; on/off-premises slips, trips and falls; and motor vehicle accidents (MVAs).
The PC’s implementation of a program for employees with multiple accidents and
OSHA I&I is also part of the ARP.

As previously stated, the Postal Service is subject to the OSH Act of 1970 and,
therefore, required to take action to improve workplace safety and reduce workplace-
related injuries. Postal Service policy states:

     •   The Postal Service will become a leader in occupational safety and health for the
         federal government and private sector by demonstrating a commitment to
         integrating safe work practices into all of its services.16

     •   Managers must demonstrate a commitment to providing safe and healthful
         working conditions in all Postal Service-owned and leased installations, become
         involved in day-to-day safety performance, and be held accountable for safety
         performance and compliance with OSHA standards and regulations.17

     •   The Postal Service will engage in innovative safety efforts such as the ERRP
         and joint union-management safety and health committees.18

     •   The Postal Service is committed to (1) participating in the OSHA VPP, (2)
         providing effective employee protection beyond the requirements of OSHA
         standards, and (3) developing and implementing systems that effectively identify,
         evaluate, and control occupational hazards to prevent employee OSHA I&I.19
         These programs recognize and establish partnerships with businesses and
         worksites that show excellence in occupational safety and health.
14
   PEG safety audits are not required at administrative facilities regardless of the number of employees.
15
   A facility’s PEG score is based on a thorough evaluation of each of the 18 PEG safety program elements. Each
element receives a numerical score that corresponds to a PEG standard level of performance. The overall score
indicates the status of the safety and health program. Specifically, 5 = Outstanding, 4 = Superior, 3 = Basic, 2 =
Developmental, and 1 = Ineffective or No Program.
16
   ELM 17.15, Section 811.22, Vision Statement.
17
   ELM 17.15, Section 811.21, Management Commitment, Involvement, and Accountability.
18
   ELM 17.15, Section 816, Joint Labor-Management Safety and Health Committees.
19
   ELM 17.15, Section 811.25, VPP.


                                                          7
Postal Service’s Workplace Safety and Workplace-Related                                    HM-AR-07-002
 Injury Reduction Goals and Progress


The actions taken by the Postal Service have improved workplace safety and reduced
workplace-related injuries. As previously shown in Table 1, from FYs 2002 to 2006, the
Postal Service achieved a 27 percent reduction in its OSHA I&I rate and a 34 percent
reduction in its numbers of total OSHA I&I. In addition, according to the OSHA Strategic
Management Plan for FYs 2003 – 2008, companies and agencies that participate in the
VPP have 54 percent fewer (on average) OSHA I&I than other companies and agencies
in their industries. As shown in Table 2, we noted that, for FYs 2005 to 2006, the
average OSHA I&I rate for the Postal Service VPP worksites was almost 9 and 11
percent lower, respectively, than the average rate for all Postal Service worksites.20
             Table 2. Comparison of OSHA I&I Rates at All Postal Service Worksites and
                                  Postal Service VPP Worksites

                                                                               Average OSHA I&I
                                                                               Rates/Percentages
                            Postal Service Worksites                           FY 2005    FY 2006
            All Worksites                                                            5.7       5.6
            VPP                                                                      5.2       5.0
            Percentage Difference Between All Worksites and VPP                      8.8      10.7

                 Source: Web Enterprise Information System (WebEIS) and SEPM OSHA
                 Coordination Manager

The actions the Postal Service has taken also contributed to the agency achieving
OSHA I&I rates significantly below the nationwide average rate for the Courier
Industry. As shown in Table 3, the Postal Service rates were significantly below the
national Courier Industry average rates for calendar years (CY)21 2003 to 2005.22
     Table 3. Comparison of the Postal Service’s OSHA I&I Rates to Bureau of Labor Statistics
                                 Courier Industry Average Rates

                           OSHA I&I Rates                    2003          2004          2005
                  Courier Industry Average, by CY            12.8          13.1          12.4
                  Postal Service, by FY                       7.1           6.3           5.7

                 Source: DOL Bureau of Labor Statistics (BLS), Industry Injury and Illness Data,
                 October 2006, and WebEIS




20
   VPP worksites are included in the “all” Postal Service worksites category.
21
   The OSHA compares Postal Service rates to the Courier Industry average rates even though the Postal Service
computes its OSHA I&I rates by fiscal year and the BLS computes the industry average rates by calendar year.
22
   The CY 2006 industry average data was not available as of March 2007. The OSHA Special Assistant told us the
I&I rates for the Postal Service in comparison with the industry average have established the Postal Service as an
industry leader.


                                                         8
Postal Service’s Workplace Safety and Workplace-Related                                      HM-AR-07-002
 Injury Reduction Goals and Progress


The Postal Service Exceeds OSHA’s I&I Goals

OSHA does not establish individual injury reduction goals for federal agencies or the
Postal Service. However, it does establish a national goal to reduce OSHA I&I for all
entities within its jurisdiction. Specifically, OSHA’s strategic management plan23 is to
reduce the rate of OSHA I&I by 20 percent from FYs 2003 to 2008. Using OSHA’s
national average reduction goal as a benchmark, we determined the Postal Service
exceeded the reduction goal by 7 percentage points – reducing its OSHA I&I rate by 27
percent over a 5-year period (FYs 2002 through 2006). According to the OSHA Special
Assistant, the partnership with the Postal Service is one of OSHA’s best in terms of
OSHA I&I reductions.

In addition, OSHA publishes the Postal Service’s statistics with DOL’s SHARE24
Initiative participants, even though the Postal Service is not required to participate in the
program. The Postal Service exceeded the SHARE Initiative goal to reduce the total
case rate (TCR)25 for I&I by at least 3 percent per year. The Postal Service’s TCR
percentage of change from FYs 2005 to 2006 was 5 percent, 2 percentage points
higher than the SHARE Initiative goal.

The Postal Service Does Not Determine the Costs of Individual Accidents or
OSHA I&I

In addition to the Postal Service’s reduced number of OSHA I&I, there may be a
corresponding reduction in its total accident and OSHA I&I costs. Since the WebEIS
the Postal Service currently uses to record OSHA I&I information does not capture
individual accident costs (for injury and non-injury accidents)26 we could not determine
the cost savings in key categories from one year to the next.

According to the SEPM Director, the Postal Service can calculate the total costs
incurred for all accidents and OSHA I&I for each fiscal year. In that regard, the costs
were $1 billion and $972 million for FYs 2005 and 2006, respectively.27 Although this
reduction in costs may be the result of fewer accidents and OSHA I&I, we could not
verify this because the FY amounts also included the continued costs for OSHA I&I28
that occurred in prior years.

23
   OSHA Strategic Management Plan for FYs 2003 – 2008.
24
   President George W. Bush established the SHARE Initiative in 2004 as a way to help federal agencies reduce
injury and illness cases and lost production day rates and substantially improve timely filing of injury and illness
notices. Each federal agency sets goals and performance targets through collaboration with the DOL which
measures and tracks the performance of each agency. The initiative is promoted by both the OSHA and the Office of
Workers’ Compensation (OWCP).
25
   The TCR is similar to the OSHA I&I but is calculated differently — the total number of workers’ compensation cases
for a FY is divided by the total number of employees for the same year, and the resulting number is multiplied by 100.
The result is the TCR per 100 employees.
26
   Injury and non-injury accident costs include payments for continuation of pay and the DOL’s OWCP compensation
and medical payments, motor vehicle repairs, industrial property and fire damages, motor vehicle tort claims, limited
duty hours/rehabilitation, and injury-related contract physicians.
27
   The FY 2007 costs-to-date (as of April 19, 2007) are down $81 million compared to the SPLY. The FY 2007 costs
as of April 19, 2007, are $492 million and in April 2006, the costs were $573 million.
28
   The continued costs for OSHA I&I include workers’ compensation and medical costs.


                                                          9
Postal Service’s Workplace Safety and Workplace-Related                                     HM-AR-07-002
 Injury Reduction Goals and Progress


We also could not determine the costs by facility, district/PC, or area office. Nor could
we determine the costs in the following key categories:

     •   non-injury accidents
     •   injury accidents
     •   type of injury
     •   type of illness
     •   per employee

During our 2006 audit of accidents and OSHA I&I at the North Texas Processing and
Distribution Center (P&DC),29 the SEPM Director informed us the Postal Service may be
able to capture the total costs of accidents and OSHA I&I once it completes all phases
of the new Injury Compensation Performance Analysis System. However, during this
audit the SEPM Director informed us the plan to capture the costs will be built into the
Postal Service’s conversion to the SAP Environmental Health and Safety (EHS)
module. The Director stated the EHS module build-up and pilot test for the newly
developed reporting system might take up to a year.

Best practices for effective management controls require the use of sound
methodologies for budgeting, recording, and reporting costs to obtain the information
and financial data needed to manage programs and operations. Not having an effective
cost center means that information and financial data for safety and health programs is
not adequately captured. This prevents the Postal Service from effectively targeting
specific high cost areas for reductions, which ultimately affects the agency’s bottom line.
In addition, accidents are not just compensation payments, but also include less
tangible costs such as: production disruption; equipment damage and downtime;
investigation and reporting costs; lowered morale; and bad public relations.

We believe the Postal Service should determine the individual costs for certain key
categories so it can target specific areas (type of accident or location) for reductions and
determine its total potential cost savings, based on the reduction in accidents and
OSHA I&I goals. Not knowing the costs could prevent the Postal Service from targeting
high cost areas for reduction, thereby more effectively reducing accidents and OSHA I&I
costs. In addition, ensuring the safety of employees has a positive impact on goodwill
and the Postal Service brand. We will report this potential non-monetary impact
(safeguarding employees and the work environment; and preserving the integrity of the
Postal Service brand) in our Semiannual Report to Congress.




29
  North Texas Processing and Distribution Center’s Analysis of Root Causes of Accidents, Injuries, and Illnesses and
the Implementation of Accident Prevention Programs (Report Number HM-AR-06-003, dated March 8, 2006).


                                                        10
Postal Service’s Workplace Safety and Workplace-Related                 HM-AR-07-002
 Injury Reduction Goals and Progress


Recommendation

We recommend the Vice President, Employee Resource Management:

1. Closely monitor conversion to the SAP Environmental Health and Safety module
   and, as soon as possible, ensure the upgraded system captures costs by facility,
   district/performance cluster, and area office as well as the costs for the following key
   categories:

       •   non-injury accidents
       •   injury accidents
       •   type of injury
       •   type of illness
       •   per employee

Management’s Comments

The Employee Resource Management Vice President agreed with the report, the non-
monetary impact, and the recommendation to capture OSHA I&I costs. The Postal
Service plans to convert their injury recordkeeping to the SAP Environmental Health
and Safety module, new 6.0 version, by March 2008. The new version provides
additional platform features that better meet the Postal Service’s safety and injury
compensation business requirements. Once the upgrade is completed, it will take
approximately a year to develop the new injury management reporting system, with a
field pilot commencing around March 2009.

Management’s comments, in their entirety, are included in Appendix G of this report.

Evaluation of Management’s Comments

Management’s planned actions are responsive to the recommendation and should
address the issue identified in the report. The OIG considers the recommendation
significant and therefore requires OIG concurrence before closure. Consequently, the
OIG requests written confirmation when corrective actions are completed. This
recommendation should not be closed in the follow-up tracking system until the OIG
provides written confirmation the recommendation can be closed.




                                                  11
Postal Service’s Workplace Safety and Workplace-Related               HM-AR-07-002
 Injury Reduction Goals and Progress


We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2100.

 E-Signed by Tammy Whitcomb
ERIFY authenticity with ApproveI




Tammy L. Whitcomb
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Patrick R. Donahoe
    Mary Anne Gibbons
    Katherine S. Banks




                                                  12
Postal Service’s Workplace Safety and Workplace-Related          HM-AR-07-002
 Injury Reduction Goals and Progress


                            APPENDIX A. ABBREVIATIONS

AMC            Air Mail Center
AMF            Air Mail Facility
APWU           American Postal Workers Union
ARP            Accident Reduction Plan
BLS            Bureau of Labor Statistics
BMC            Bulk Mail Center
CS             Customer Service
CY             Calendar Year
DOL            Department of Labor
EDW            Enterprise Data Warehouse
EHS            Environmental Health and Safety
ELM            Employee and Labor Relations Manual
ERRP           Ergonomics Risk Reduction Process
FY             Fiscal Year
I&I            Injuries and Illnesses
LDC            Logistics Distribution Center
MPO            Main Post Office
MVA            Motor Vehicle Accident
NALC           National Association of Letter Carriers
NPMHU          National Postal Mail Handlers Union
NRLCA          National Rural Letter Carriers’ Association
NSI            National Safety Indicator
OIG            U.S. Postal Service Office of Inspector General
OSHA           Occupational Safety and Health Administration
OSH Act        Occupational Safety and Health Act
OWCP           Office of Workers’ Compensation Programs
PAEA           Postal Accountability and Enhancement Act
PC             Performance Cluster
P&DC           Processing and Distribution Center
P&DF           Processing and Distribution Facility
PEG            Program Evaluation Guide
PO             Post Office
REC            Remote Encoding Center
SEPM           Safety and Environmental Performance Management
SHARE          Safety and Health Return to Employment
SPLY           Same Period Last Year
TCR            Total Case Rate
VMF            Vehicle Maintenance Facility
VP             Vice President
VPP            Voluntary Protection Programs
WebEIS         Web Enterprise Information System




                                                  13
Postal Service’s Workplace Safety and Workplace-Related                                    HM-AR-07-002
 Injury Reduction Goals and Progress


                     APPENDIX B. SCOPE AND METHODOLOGY
We identified the Postal Service’s OSHA I&I goals established for FYs 2002 through
2006 through interviews with the SEPM Director and the SEPM Program Manager, as
well as documents provided by those officials. We reviewed and analyzed FYs 2002
through 2006 OSHA I&I goals and rates to determine the extent to which the Postal
Service met these goals. We obtained this data from the Postal Service’s Blue Pages,
WebEIS, Strategic Transformation Plan 2006-2010, and the Comprehensive
Statements for FYs 2002 through 2006.

To describe the actions taken to improve workplace safety and reduce workplace-
related injuries, we reviewed data and information from the WebEIS National
Performance Assessment page and information on the ERRP and the OSHA VPP. In
addition, we interviewed and obtained information from the SEPM Director, the SEPM
Program Manager, the Postal Service’s OSHA Coordination Manager, the ERRP
Manager, and the OSHA Special Assistant.

To determine if the Postal Service injury reduction goals were in accordance with the
DOL OSHA guidelines for establishing OSHA I&I goals, we interviewed the SEPM
Director and OSHA’s Special Assistant. We also reviewed OSHA’s Strategic
Management Plan for FYs 2003 – 2008, OSHA’s SHARE Initiative reduction goals, as
well as industry goals established by BLS for specific industries classified under the
North American Industry Classification Standards.

Data Reliability Testing

To determine the reliability of computer-generated data, we reviewed the controls in
place for the processing of OSHA I&I data by the Postal Service’s information systems.
We also considered the results of two audits we issued in 2004 and 2006.30

The Postal Service has implemented procedures to ensure that OSHA I&I data are
accurately captured at the source and input into the systems. Our evaluation of these
procedures provides us reasonable assurance that data entered into the Human
Resource Information System’s safety and health application is reliable.

Additionally, we evaluated the policies and procedures for data acquisition, transport,
and loading of data from different Postal Service systems into the Enterprise Data
Warehouse (EDW) and WebEIS. We also examined data acquisition and transfer
specifications for the Postal Service’s safety and health portion of the monthly reporting
from the EDW. However, our evaluation did not include any testing (such as transaction
testing or testing of data elements or metadata), configurations, or determinations as to


30
  The two reports are Summary Report on the Efforts to Prevent Accidents, Injures, and Illnesses in 12 Performance
Clusters (Report Number HM-AR-04-012, dated September 21, 2004), and North Texas Processing and Distribution
Center’s Analysis of Root Causes of Accidents, Injuries, and Illnesses and the Implementation of Safety Prevention
Programs (Report Number HM-AR-06-003, dated March 8, 2006).


                                                        14
Postal Service’s Workplace Safety and Workplace-Related               HM-AR-07-002
 Injury Reduction Goals and Progress


whether access privileges to health and safety data are limited to appropriate
employees.

The evaluation indicated that, overall, adequate controls exist in the processes of
acquiring data from different source systems, performing any required data
transformations, loading the data into the EDW and WebEIS, and establishing standard
procedures for carrying out the processes. The mechanisms implemented also
incorporate built-in control measures that provide the means to correct any exceptions
that may occur during the processes. These controls provide sufficient basis to place
reliance on the data extracted from the EDW and WebEIS. Further, audits conducted in
2004 and 2006 showed no exceptions and indicated that established procedures
facilitated accurate reporting of OSHA I&I data.

We conducted this audit from December 2006 through May 2007 in accordance with
generally accepted government auditing standards and included such tests of internal
controls as were considered necessary under the circumstances. We discussed our
observations and conclusions with management officials on April 3, 2007, and included
their comments where appropriate.




                                                  15
Postal Service’s Workplace Safety and Workplace-Related              HM-AR-07-002
 Injury Reduction Goals and Progress


                     APPENDIX C. PRIOR AUDIT COVERAGE

The OIG report titled North Texas Processing and Distribution Center’s Analysis of Root
Causes of Accidents, Injuries, and Illnesses and the Implementation of Accident
Prevention Programs (Report Number HM-AR-06-003, dated March 8, 2006) stated the
North Texas P&DC identified and documented root causes for most of the FY 2003
accidents and OSHA I&I in our review. The report stated the North Texas P&DC
managers and supervisors, however, did not document implementation of prevention
programs for the majority of accidents and OSHA I&I that occurred. The report also
stated some hazardous conditions identified in a safety inspection had reoccurred and
identified a new hazard in the loading dock area. Postal Service management took
corrective action on all the conditions we identified. Although there were no
recommendations for management, the North Texas P&DC plant manager said they
would use the findings in the report as an opportunity to improve the existing accident
analysis processes at their facility.

The OIG report titled Summary Report on the Efforts to Prevent Accidents, Injuries, and
Illnesses in 12 Performance Clusters (Report Number HM-AR-04-012, dated September
21, 2004) summarized the review of 12 PCs’ accident prevention initiatives, the
effectiveness and timeliness of implementing prevention initiatives, accident reporting
systems, the reporting process, and benchmarking the best practices of private
companies. The report stated that data showing the reduction in the number of
accidents and OSHA I&I at some PCs was the result of prevention initiatives. The
report also stated most reporting processes were adequate; however, several facilities
in the Mississippi PC can improve their completion of accident report forms.




                                                  16
Postal Service’s Workplace Safety and Workplace-Related                                   HM-AR-07-002
 Injury Reduction Goals and Progress


  APPENDIX D. ACTIONS TAKEN AND OPPORTUNITIES IDENTIFIED
 BY THE POSTAL SERVICE TO IMPROVE WORKPLACE SAFETY AND
           REDUCE WORKPLACE-RELATED INJURIES
Under the 2002 Transformation Plan, the Postal Service identified opportunities and
implemented several innovative programs to improve workplace safety and reduce
workplace-related injuries. According to the SEPM Director, the following programs and
actions are aimed at achieving those results:

     •   Dog Bite Program
     •   Special emphasis safety talks
     •   Monthly performance progress reports, by area office, focusing on National Safety
         Indicators (NSI)31
     •   Monthly performance progress reports by union
     •   Copies of weekly (employee) mandatory safety talks sent to management
         associations32 to inform them of efforts to improve workplace safety
     •   Various training courses such as:
            o Safety for Postal Service Leadership
            o Core Curriculum for Safety Personnel
            o Defensive Driving Refresher
            o New Hire Orientation
            o Implementation of New Safe Driver Program
            o Hazardous Waste Operations
            o Emergency Response Action Plans
            o Environmental Safety and Health Training
            o Safety and Health Committee Training
            o Maintenance Training
     •   Annual assessments (such as semi-annual OSHA I&I reviews of all 80 PCs,
         comprehensive safety program evaluations of approximately 4,000 facilities, and
         approximately 30,000 facility safety inspections)
     •   National Performance Assessment
     •   Partnerships/Agreements with unions: ERRP, NALC Joint Task Force, and VPP
     •   PEG
     •   ARP




31
  The Postal Service defines NSIs as data-driven opportunities for the management of OSHA I&I and MVAs.
32
  The management associations are the National Association of Postmasters of the United States, the National
League of Postmasters of the United States, and the National Association of Postal Supervisors.


                                                       17
Postal Service’s Workplace Safety and Workplace-Related     HM-AR-07-002
 Injury Reduction Goals and Progress


  APPENDIX E. ERGONOMICS RISK REDUCTION PROCESS ACTIVE
      WORKSITES (126) BY AREA OFFICE AS OF APRIL 2007

                                                             Number of
          Area Office                            Worksite    Employees
       Capitol Metro       Charlotte P&DC                          1,258
       Capitol Metro       Dulles P&DC                               643
       Capitol Metro       Greensboro BMC                            768
       Capitol Metro       Greensboro P&DC                           898
       Capitol Metro       Norfolk P&DC                              901
       Capitol Metro       Northern Virginia P&DC                  1,115
       Capitol Metro       Richmond P&DC                           1,417
       Eastern             Cincinnati BMC                            948
       Eastern             Cincinnati P&DC                         1,736
       Eastern             Cleveland P&DC                          1,897
       Eastern             Columbus P&DC                           1,553
       Eastern             Dayton P&DC                               593
       Eastern             Harrisburg P&DC                           951
       Eastern             Lancaster P&DC                            518
       Eastern             Louisville P&DC                         1,008
       Eastern             Philadelphia BMC                        1,073
       Eastern             Philadelphia P&DC                       2,264
       Eastern             Pittsburgh BMC                            686
       Eastern             Pittsburgh P&DC                         1,594
       Eastern             Raleigh P&DC                              796
       Eastern             South Jersey P&DC                       1,095
       Eastern             Southeastern P&DC                         810
       Great Lakes         Carol Stream P&DC                       1,387
       Great Lakes         Chicago BMC                             1,279
       Great Lakes         Chicago P&DC                            2,284
       Great Lakes         Detroit BMC                               836
       Great Lakes         Detroit P&DC                            2,091
       Great Lakes         Gary P&DC                                 370
       Great Lakes         Grand Rapids P&DC                         899
       Great Lakes         Indianapolis P&DC                       1,305
       Great Lakes         Kalamazoo P&DC                            107
       Great Lakes         Lansing P&DC                              540
       Great Lakes         Little Rock P&DC                          697
       Great Lakes         Madison P&DC                              547
       Great Lakes         Milwaukee P&DC                          1,620
       Great Lakes         Palatine P&DC                             634
       Great Lakes         Royal Oak P&DC                          1,203
       Great Lakes         Saint Louis P&DC                        2,286
       Great Lakes         South Suburban P&DC                     1,051
       New York Metro      Brooklyn P&DC                           1,483
       New York Metro      Dominic V. Daniels P&DC                 2,088
       New York Metro      Mid-Hudson P&DC                           536
       New York Metro      Mid-Island P&DC                         1,673
       New York Metro      Morgan Station P&DC                     3,768



                                                  18
Postal Service’s Workplace Safety and Workplace-Related                                HM-AR-07-002
 Injury Reduction Goals and Progress




                                                                                         Number of
           Area Office                             Worksites                             Employees
        New York Metro      Monmouth P&DC                                                         426
        New York Metro      New Jersey BMC                                                      1,750
        New York Metro      New York International Service Center                               1,807
        New York Metro      Northern New Jersey P&DC                                              769
        New York Metro      Queens P&DC                                                         1,410
        New York Metro      Trenton P&DC                                                          739
        New York Metro      Westchester P&DC                                                    1,124
        Northeast           Boston P&DC                                                         1,786
        Northeast           Brockton P&DC                                                         503
        Northeast           Buffalo P&DC                                                        1,088
        Northeast           Central Massachusetts P&DC                                            605
        Northeast           Manchester P&DC                                                       521
        Northeast           Middlesex-Essex P&DC                                                  599
        Northeast           Portland, Maine P&DC                                                  718
        Northeast           Providence P&DC                                                       983
        Northeast           Rochester P&DC                                                        690
        Northeast           Southern Connecticut P&DC                                             871
        Northeast           Springfield BMC                                                     1,250
        Northeast           Syracuse P&DC                                                         584
        Pacific             City of Industry P&DC                                                 937
        Pacific             Honolulu P&DC                                                         799
        Pacific             Las Vegas P&DC                                                        926
        Pacific             Long Beach P&DC                                                       890
        Pacific             Los Angeles BMC                                                     1,382
        Pacific             Los Angeles P&DC                                                    3,081
        Pacific             Margaret L. Sellers P&DC                                            1,403
        Pacific             Mid Way P&DF                                                          403
        Pacific             North Bay P&DC                                                        777
        Pacific             Oakland P&DC                                                        2,287
        Pacific             San Bernardino P&DC                                                 1,035
        Pacific             San Francisco P&DC                                                  2,414
        Pacific             San Jose P&DC                                                         903
        Pacific             Santa Ana P&DC                                                      1,308
        Pacific             Santa Clarita P&DC                                                  1,416
        Pacific             Stockton P&DC                                                         480
        Pacific             West Sacramento P&DC                                                1,536
        Southeast           Atlanta BMC                                                           722
        Southeast           Atlanta P&DC                                                        1,572
        Southeast           Birmingham P&DC                                                     1,078
        Southeast           Fort Lauderdale P&DC                                                  637
        Southeast           Fort Myers P&DC                                                       647
        Southeast           Jacksonville Annex                                                     033
        Southeast           Jacksonville P&DC                                                   1,241
        Southeast           Knoxville P&DC                                                        616




33
  The ERRP Manager told us the Jacksonville Annex is a subset of the Jacksonville P&DC. He said the employees
identified for the P&DC include those who work at the annex.


                                                      19
Postal Service’s Workplace Safety and Workplace-Related              HM-AR-07-002
 Injury Reduction Goals and Progress




                                                                      Number of
          Area Office                           Worksites             Employees
       Southeast           Memphis BMC                                        849
       Southeast           Memphis P&DC                                     1,041
       Southeast           Miami P&DC                                       1,328
       Southeast           Mid-Florida P&DC                                   536
       Southeast           Montgomery P&DC                                    472
       Southeast           Nashville P&DC                                   1,023
       Southeast           North Metro P&DC                                 1,300
       Southeast           Saint Petersburg P&DC                              528
       Southeast           South Florida P&DC                                 701
       Southeast           Tampa P&DC                                       1,450
       Southwest           Albuquerque P&DC                                   692
       Southwest           Austin P&DC                                        939
       Southwest           Baton Rouge P&DC                                   574
       Southwest           Corpus Christi P&DC                                224
       Southwest           Dallas BMC                                       1,449
       Southwest           Dallas P&DC                                      2,013
       Southwest           Fort Worth P&DC                                  1,619
       Southwest           Houston P&DC                                     1,849
       Southwest           North Houston P&DC                               1,216
       Southwest           North Texas P&DC                                 1,507
       Southwest           Oklahoma City P&DC                                 809
       Southwest           San Antonio P&DC                                 1,218
       Southwest           Tulsa P&DC                                         670
       Western             Anchorage P&DC                                     364
       Western             Denver BMC                                         699
       Western             Denver P&DC                                      2,265
       Western             Des Moines P&DC                                    997
       Western             Irving Park P&DC                                   921
       Western             Kansas City P&DC                                 1,604
       Western             Minneapolis P&DC                                 1,499
       Western             Mount Hood Delivery Distribution Center            231
       Western             Portland P&DC                                    1,110
       Western             Saint Paul BMC                                     557
       Western             Saint Paul P&DC                                  1,232
       Western             Salt Lake City P&DC                                727
       Western             Seattle P&DC                                     1,395
       Western             Spokane P&DC                                       385
       Western             Twin Cities Metro Hub                              325

       Source: Postal Service ERRP Manager, April 2007




                                                  20
Postal Service’s Workplace Safety and Workplace-Related     HM-AR-07-002
 Injury Reduction Goals and Progress


  APPENDIX F. VOLUNTARY PROTECTION PROGRAMS WORKSITES
            (108) BY AREA OFFICE AS OF APRIL 2007
                                                                         OSHA
                                                          Number of       VPP
        Area                               Worksite       Employees     Program
Capital Metro        Baltimore CS                                 114   Merit
Capital Metro        Charlottesville P&DC                         202   Star
Capital Metro        Gaithersburg MPO                              61   Star
Capital Metro        Hickory P&DC                                 204   Star
Capital Metro        Hickory PO                                   134   Star
Capital Metro        Salisbury PO                                 123   Star
Capital Metro        Vienna MPO                                   107   Star
Capital Metro        Virginia Beach London Bridge CS               78   Star
Capital Metro        Virginia Beach Lynnhaven CS                  115   Star
Eastern              Cherry Hill PO                               167   Star
Eastern              Cincinnati AMF                                61   Star
Eastern              Cleveland AMC                                204   Star
Eastern              Columbus AMF                                  60   Star
Eastern              Danville PO                                  106   Star
Eastern              Erie P&DC                                    350   Star
Eastern              Lititz Carrier Annex                          61   Star
Eastern              Philadelphia BMC                           1,031   Star
Eastern              Pittsburgh REC                               515   Star
Eastern              Scranton P&DC                                276   Star
Eastern              Scranton PO                                   14   Star
Eastern              Winchester PO                                 49   Star
Great Lakes          Fenton PO                                     77   Merit
Great Lakes          Flint P&DC                                   318   Star
Great Lakes          Fort Wayne REC                               494   Merit
Great Lakes          Monroe PO                                      4   Merit
Great Lakes          Niles PO                                      66   Star
Great Lakes          Rochester Carrier Annex                       62   Star
New York Metro       Arecibo PO                                    53   Star
New York Metro       Bethpage PO                                   52   Star
New York Metro       Grand Central Station CS                     400   Star
New York Metro       Kingston PO                                  134   Star
New York Metro       Long Island City MPO                         107   Star
New York Metro       Madison Square Station CS                    161   Star
New York Metro       Monroe Township PO                            98   Star
New York Metro       Newark VMF                                    51   Star
New York Metro       West Milford PO                               27   Star
New York Metro       Western Nassau VMF                            33   Merit




                                                  21
Postal Service’s Workplace Safety and Workplace-Related    HM-AR-07-002
 Injury Reduction Goals and Progress



                                                                       OSHA
                                                          Number of     VPP
        Area                                Worksite      Employees   Program
Northeast            Acton MPO                                   53   Star
Northeast            Biddeford PO                                80   Star
Northeast            Cambridge Central Square CS                182   Star
Northeast            Cape Cod P&DF                              140   Merit
Northeast            Danbury PO                                 189   Star
Northeast            Fulton PO                                  182   Star
Northeast            Glens Falls MPO                            135   Star
Northeast            Goffstown CS                                25   Star
Northeast            Jamestown PO                               135   Star
Northeast            Middleboro PO                               53   Star
Northeast            Newport CS                                  24   Star
Northeast            North Tonawanda PO                          71   Star
Northeast            Northern Hub and Spoke Project             100   Merit
Northeast            Pawtucket CS                               118   Star
Northeast            Rochester LDC                              250   Merit
Northeast            Rochester P&DC                             780   Star
Northeast            Springfield LDC                            400   Star
Northeast            Syracuse P&DC                              575   Star
Northeast            Syracuse Teal Station CS                   102   Merit
Northeast            Tewksbury CS                                53   Star
Northeast            Utica CS                                   125   Star
Northeast            Utica P&DC                                 191   Star
Northeast            West Chazy PO                               11   Star
Pacific              Kula PO                                     12   Star
Pacific              Midway P&DF                                405   Star
Pacific              Salinas P&DC                               100   Star
Pacific              Santa Barbara P&DC                         320   Star
Southeast            Atlanta AMC                                671   Star
Southeast            Boca Raton MPO                             106   Star
Southeast            Brookhaven CS                               34   Star
Southeast            Brunswick MPO                               84   Star
Southeast            Chattanooga P&DC                           417   Star
Southeast            Dalton CS                                   63   Star
Southeast            Gainesville P&DF                           297   Star
Southeast            Gulfport P&DC                              145   Star
Southeast            Hollywood Florida CS                       172   Star
Southeast            Longwood MPO                                56   Star
Southeast            Montgomery P&DC                            469   Star




                                                  22
Postal Service’s Workplace Safety and Workplace-Related     HM-AR-07-002
 Injury Reduction Goals and Progress



                                                                        OSHA
                                                          Number of      VPP
      Area                                  Worksite      Employees    Program
Southeast            Tampa P&DC                                1,466   Star
Southeast            Winter Park Aloma CS                         73   Star
Southeast            Winter Park MPO                              75   Star
Southeast            Dalton East Side CS                          41   Star
Southwest            Austin Bluebonnet CS                        137   Star
Southwest            Baton Rouge P&DC                            567   Star
Southwest            Bryan MPO                                   202   Star
Southwest            Farmington PO                                88   Merit
Southwest            Metairie MPO                                116   Star
Southwest            San Angelo MPO                              105   Star
Southwest            Spring PO                                   115   Star
Southwest            Tyler PO                                     75   Star
Southwest            West Monroe PO                               87   Star
Western              Aurora Tower Station CS                     119   Star
Western              Beaverton-Evergreen CS                      115   Star
Western              Boise P&DC                                  340   Star
Western              Cape Girardeau P&DF                         165   Star
Western              Casper MPO                                  170   Star
Western              Dakota Central P&DF                          60   Star
Western              Des Moines BMC                              470   Star
Western              Duluth CS                                   160   Merit
Western              Duluth P&DC                                 160   Merit
Western              Eau Claire Annex                             86   Merit
Western              Everett P&DF                                372   Star
Western              Kalispell PO                                 87   Star
Western              Las Vegas AMC                                83   Merit
Western              Norfolk P&DF                                 76   Star
Western              Omaha P&DC                                  947   Star
Western              Pocatello Mail Processing Annex             100   Star
Western              Provo- East Bay CS                          119   Merit
Western              Sioux City MPO                              154   Star
Western              Sioux Falls CS                              325   Star
Western              Wichita P&DC                                512   Star

Source: OSHA Coordination Manager, April 2007




                                                  23
Postal Service’s Workplace Safety and Workplace-Related   HM-AR-07-002
 Injury Reduction Goals and Progress


                      APPENDIX G. MANAGEMENT’S COMMENTS




                                                  24
